Report No. DODIG-2012-131        September 19, 2012




   Improvements Needed in How the Defense
   Finance and Accounting Service Adjusts and
             Supports Billing Rates
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing at
auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations

AOR                           Accumulated Operating Results
DFAS                          Defense Finance and Accounting Service
DLA                           Defense Logistics Agency
DoD FMR                       DoD Financial Management Regulation
DPBS                          DFAS Program and Budget System
FBWT                          Fund Balance with Treasury
NARA                          National Archives and Records Administration
NOR                           Net Operating Results
QMD                           Quantitative Methods Division
RMD                           Resource Management Decision
U.S.C.                        United States Code
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial Officer,
                                 DoD
                                      INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE
                                       4800 MARK CENTER DRIVE
                                    ALEXANDRIA, V IRGINIA 22350-1500




                                                                                September 19, 20 12

 MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CillEF
                  FINANCIAL OFFICER, DOD
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                  MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AN D ACCOUNTING SERVICE
               DIRECTOR, DEFENSE LO.GISTICS AGENCY
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Improvements Needed in How the Defense Finance and Accounting Service Adjusts
         and Suppmts Billing Rates (Report No. DODIG-2012-131)

We are providing this report for review and comment. The Defense Finance and Accounting
Service (DFAS) did not comply- with DoD requirements when it returned $35.5 million to
customers in FY 201 1. Additionally, DFAS only adjusted one billing rate in returning an
additional $128.7 million in FY 2012, and it did not maintain sufficient support for billing rates.
We considered management comments on a draft of this repmt when preparing the final report.

DoD Directive 7650.3 requires that reconunendations be resolved promptly. Comments from the
Under Secretary of Defense (Comptroller)/ChiefFinancial Officer, DoD, were generally
responsive, and we do not require additional comments. The DFAS Chief Financial Officer also
provided comments that were generally responsive; however, conunents on Recommendation
B.2 were only prutially responsive .. Therefore, we request additional comments on this
recommendation by October 19, 2012.

Please provide conunents that conform to the requirements ofDoD Directive 7650.3. If
possible, send a portable document file (.pdf) :file containing your comments to
audfmr@dodig.mil. Copies of management comments must contain the actual signature of the
authorizing official. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you mmnge to send classified comments electronically, you must send them over
the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the comtesies extended to the staff. Please direct questions to me at
(703) 604-8938.


                                             ~ fl1.J~
                                             Richard B. Vasquez, CPA
                                             Acting Assistant Inspector General
                                             Financial Management and Reporting
Report No. DODIG-2012-131 (Project No. D2011-D000FI-0001.000) September 19, 2012


               Results in Brief: Improvements Needed in How
               the Defense Finance and Accounting Service
               Adjusts and Supports Billing Rates

What We Did                                              not establish a policy to maintain budgetary
                                                         documentation. As a result, DFAS could not
We determined whether the methodology the
                                                         demonstrate that FY 2011 workcounts or
Defense Finance and Accounting Service
                                                         $52.9 million of direct cost for Retired Military
(DFAS) used to estimate the workcounts and
                                                         Pay Accounts and $254.1 million of direct cost
direct costs for Retired Military Pay Accounts
                                                         for Accounting Services were based on historical
and Accounting Services for the FY 2011
                                                         results.
stabilized billing rates complied with applicable
laws and regulations. We also determined
                                                         Additionally, we determined that DFAS took
whether DFAS had taken action to reduce rates
                                                         action to reduce rates through efficiencies, but
through greater efficiencies.
                                                         we were unable to determine any effect on
What We Found                                            customer billing rates.
DFAS did not comply with DoD Financial                   What We Recommend
Management Regulation (DoD FMR)
                                                         The USD(C)/CFO should enforce policies for
requirements when returning $35.5 million to
                                                         returning Accumulated Operating Results
DoD customers in FY 2011. This occurred
                                                         through rate adjustments unless he can support
because a DFAS Resource Management
                                                         using billing credits.
representative misinterpreted guidance from the
Revolving Funds Directorate, Under Secretary of          The DFAS Director of Resource Management
Defense (Comptroller)/Chief Financial Officer,           should:
DoD (USD[C]/CFO). As a result, DFAS did not              • establish procedures to routinely identify the
properly align costs with outputs, potentially              outputs responsible for significant changes in
causing Accumulated Operating Results to                    Net Operating Results and reconciling
increase. On August 31, 2011, we issued a                   Accounting Services workload,
memorandum to USD(C)/CFO requesting that his             • provide customers with additional
office determine an appropriate course of action.           information on accounting services and a
On November 8, 2011, he responded but did not               monthly comparative analysis of actual and
take corrective action.                                     anticipated workcounts, and
DFAS also did not adjust the FY 2012 billing             • develop policy to identify and maintain
rates for all services in returning $128.7 million          budgetary documentation.
to DoD customers. This occurred because DFAS             Management Comments and
had not developed procedures to routinely
compare costs and revenues at the output levels.         Our Response
As a result, DFAS distorted the FY 2012 billing          USD(C)/CFO’s comments met the intent of the
rates.                                                   recommendations. The DFAS Chief Financial
                                                         Officer’s comments on Recommendation B.2
In addition, DFAS personnel did not maintain
                                                         were partially responsive. We request additional
sufficient documentation to demonstrate full
                                                         comments as specified in the recommendations
compliance with DoD guidance for rate
                                                         table on the back of this page.
development. This occurred because DFAS did
                                                     i
Report No. DODIG-2012-131 (Project No. D2011-D000FI-0001.000) September 19, 2012


Recommendations Table

        Management                Recommendations      No Additional Comments
                                 Requiring Comment           Required
Under Secretary of Defense                             A
(Comptroller)/Chief Financial
Officer, DoD

Director of Resource            B.2                    B.1, B.3, B.4, C
Management, Defense Finance
and Accounting Service


Please provide comments by October 19, 2012.




                                        ii
Table of Contents
Introduction                                                                1

      Audit Objectives                                                      1
      Background on DFAS Services, Costs, and Systems                       1
      Review of Internal Controls Over the Development of Billing Rates     4
Finding A. Improper Method Used to Return AOR to Customers in FY 2011       5

      AOR Increased From FY 2008 to FY 2010                                 5
      DFAS Personnel Did Not Follow Guidance in Returning AOR               6
      DFAS Personnel Misinterpreted Guidance                                7
      Costs Were Not Properly Aligned With Outputs                          8
      USD(C)/CFO Was Notified and Responded                                 9
      Conclusion                                                           10
      Management Comments on the Finding and Our Response                  10
      Recommendation, Management Comments, and Our Response                11
Finding B. Return of AOR Distorted FY 2012 Billing Rates                   12

      DoD Had Guidance for Adjusting Customer Rates                        12
      DFAS Could Not Identify the Outputs That Caused AOR to Increase      13
      AOR Return Distorted Billing Rates and Increased Customer Concerns   14
      Customers Were Concerned About the Lack of Information on the Rate
         Development Process                                               15
      Unit Cost Effort Should Improve the Cost Allocation Process          16
      Conclusion                                                           17
      Recommendations, Management Comments, and Our Response               17
Finding C. DFAS Needs to Maintain Supporting Documentation for
Workcounts and Costs                                                       20

      DFAS Complied With Some Rate Development Guidance                    20
      DFAS Did Not Maintain Documentation on Workcounts and Direct Costs
         for Outputs 4 and 11                                              21
      DFAS Did Not Retain Supporting Documentation                         23
      Cost-Saving Initiatives                                              23
      Conclusion                                                           23
      Recommendation, Management Comments, and Our Response                24
Table of Contents (cont’d)
Appendices

      A. Scope and Methodology                                                25
              Use of Computer-Processed Data                                  26
             Use of Technical Assistance                                      26
      B. DFAS Development of Workcounts and Costs                             27
      C. Memorandum for USD(C)/CFO                                            30
      D. USD(C)/CFO Response                                                  34
      E. DFAS Rate Fluctuations                                               35
      F. Statistical Sample                                                   37
      G. DFAS Efficiency Actions                                              39
Management Comments

      Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD   41
      Defense Finance and Accounting Service                                  43
Introduction
Audit Objectives
The objective was to determine whether the methodology the Defense Finance and
Accounting Service (DFAS) used to estimate the units of production (workcounts) and
direct costs for FY 2011 stabilized billing rates complied with applicable laws and
regulations. Specifically, we determined whether DFAS estimated workcounts and direct
costs for two outputs, Retired Military Pay Accounts (Output 4) and Accounting Services
(Output 11), in accordance with applicable laws and regulations. We also determined
whether DFAS had taken action to reduce rates through greater efficiencies. See
Appendix A for a discussion of the scope and methodology.

Background on DFAS Services, Costs, and Systems
DFAS personnel pay all DoD military and civilian personnel, retirees, and annuitants, as
well as major DoD contractors and vendors. According to DFAS officials, DFAS is the
world’s largest finance and accounting operation. DFAS consists of nine sites in seven
states and two cities overseas, with its headquarters in Indianapolis, Indiana.

DFAS is financed as a working capital fund, obtaining revenue by charging customers for
services provided rather than being funded through direct appropriations from Congress.
As a working capital fund, DFAS must recoup the costs it incurs for performing services.
The goal of all DoD working capital funds is to achieve an Accumulated Operating
Result (AOR) 1 of zero. Because DFAS sets rates for its services based on estimated
levels of work and costs, DFAS may have either a positive or negative Net Operating
Result (NOR) at the end of each fiscal year. DoD Regulation 7000.14-R, “DoD Financial
Management Regulation (DoD FMR),” volume 2A, chapter 1, “General Information,”
October 2008, states that rates charged to customers are to be set to either make up actual
or projected losses or give back actual or projected gains in the budget years.

DFAS Services
DFAS classifies its services into specific outputs, which represent its functions, such as
military and civilian pay, retired military pay, vendor pay, travel pay, accounting
services, and Foreign Military Sales. The November 2010 version of “Doing Business
with DFAS: Catalog of Services” (DFAS Catalog of Services), identifies 31 DFAS
outputs. 2 See Appendix B, Table B, for a list of DFAS outputs.



1
  The AOR represents the cumulative impact of gains and losses on total operations of the activity group
since the inception of the fund. In the report, we refer to an excessive positive amount of an AOR as an
AOR surplus.
2
  DFAS has 29 rate-based outputs. In addition to the rate-based outputs, DFAS provides two services billed
at actual cost: Support to Others (Output 18), which is reimbursable work performed by DFAS that is not
within the established DFAS rate structure, and Direct System Reimbursement (Output 61), which
relates to actual systems and systems support not aligned with a specific output.

                                                    1
We selected two rate-based outputs to examine: Output 4, “Retired Military Pay
Accounts,” and Output 11, “Accounting Services.” The November 2010 DFAS Catalog
of Services defined Output 4 (Retired Military Pay Accounts) as:

        all accounts maintained for retirees, annuitants, former spouses, Voluntary Separation
        Incentive (VSI), Reservist Special Separation Program (RSSP), Victims of Dependent
        Abuse (VOA), and Combat Related Special Compensation (CRSC) at the end of the
        processing month. Counts include pay, non-pay, suspended, un-established, and
        terminated waiting settlement status accounts. Excluded are terminated Retiree and
        Annuitant accounts which are dropped from the work count total on the first of the
        month, following the completed processing of the account.

DFAS personnel determine the quantity of workcounts from the number of accounts
serviced by the Defense Retiree and Annuitant Pay System. DFAS only provides
Output 4 services to the Army, Navy, Air Force, and Marine Corps. In FY 2011,
Output 4 comprised approximately 5 percent of the total DFAS estimated revenue, but it
had the largest number of estimated workcounts (33.2 million). 3 (Appendix A shows
how the workload and direct costs for Outputs 4 and 11 compare to all other outputs.)

The November 2010 DFAS Catalog of Services defined Output 11 (Accounting Services)
as “direct productive civilian, military, contractor, and foreign national labor hours
associated with employees performing accounting services.” In addition, the DFAS
Catalog of Services states that Output 11 workcounts are determined by those labor hours
directly reported by employees in the e-Biz system and certified as correct by their
supervisors. Output 11 estimated revenues were $467 million, or about 30 percent of the
total DFAS FY 2011 estimated revenue. DFAS’s estimated revenues for Output 11
totaled $413.7 million from the Army, Navy, Air Force, Marine Corps, and Defense
Logistics Agency (DLA).

DFAS Costs
Statement of Federal Financial Accounting Standards No. 4, “Managerial Cost
Accounting Concepts and Standards for the Federal Government,” July 31, 1995, states
that managerial cost accounting should be a fundamental part of the financial
management system. Direct costs, indirect costs, and general and administrative costs
comprise the basic classification of costs within the financial data used by DFAS to
develop output rates. Of DFAS’s $1.5 billion in costs incurred during FY 2011, direct
costs were $0.9 billion, indirect costs were $0.4 billion, and general and administrative
costs were $0.2 billion. The Figure shows the DFAS revenues and costs for FYs 2007
through 2011.




3
 We excluded Outputs 18 and 61 when comparing the estimated number of workcounts because they were
cost-reimbursable services, not rate-based outputs. As such, they did not have estimated workcounts, only
estimated costs.

                                                    2
                              Figure. DFAS Revenues and Costs
                                        (in billions)
   $1.650
                                                                                Revenue

                                                                                Costs
                                                                    $1.604
   $1.600

                                                  $1.572               $1.571

                                                                                  $1.548
   $1.550
                     $1.538                                $1.554
                                                                                    $1.542

                                $1.509
            $1.512
                                         $1.502
   $1.500
                 2007            2008                   2009            2010    2011

                     Note: Amounts obtained from the Accounting Reports 1307.

In FY 2011, DFAS provided services to 43 customers. The Army, Navy, Air Force,
Marine Corps, and DLA were DFAS’s five largest customers by revenue. Cumulatively,
they provided 86 percent of the FY 2011 DFAS revenues.

DFAS Systems
DFAS uses the DFAS Program and Budget System (DPBS) for resource programming
and budget planning of full-time equivalents, capital investments, expenses, and
workcounts. There are two separate modules of databases in the system: Formulation
and Distribution. DFAS uses the Formulation module for budgeting and programming
resources. DFAS uses the Distribution module for current-year execution data associated
with establishing the agency’s annual operating budget.

DFAS uses the e-Biz system as its cost accounting system. The e-Biz Workcount/
Performance Measurement Indicator module allows DFAS to measure the work it
performs in order to bill its customers. DFAS defines workcounts for each of the
functions it performs for customers. There are three processes to accumulate
workcounts: one is internal (data within e-Biz based on labor transactions), another is
external (data generated outside e-Biz), and the last is manual (data manually input into
the transaction notebook). The e-Biz Timekeeping module feeds the Defense Civilian
Personnel System and the Non-Civilian Labor Batch process, which update the general
ledger. The internal accumulation process updates the Performance Measurement
Indicator module.

Stabilized Rates
DoD FMR, volume 2B, chapter 9, “Defense Working Capital Funds Activity Group
Analysis,” September 2008, defines a stabilized rate as the cost per direct labor hour (or

                                                    3
other output measure) customers are charged for the products and services provided by
the activity. The stabilized rate is determined by taking an approved cost per output
measure for the budget year and adjusting it for inter-Fund transactions and the impact of
prior-year gains or losses as reflected by the AOR. Chapter 9 also states that rates
charged to customers are to be developed by working capital fund activities in their
budget estimates to recoup all costs associated with the operating and capital budgets,
including all labor and non-labor, direct, indirect, and general and administrative costs.

A stabilized billing rate policy serves to protect customers of a working capital fund from
unexpected inflationary increases and better assures customers that they will not need to
reduce programs to pay for higher-than-anticipated prices. Once established, billing rates
are stabilized for the budget year and will not change during the execution year, except in
unusual circumstances. Additionally, a stabilized billing rate allows activities to fully
execute the budgeted program level and permits more effective planning and use of
financial resources. DFAS calculates billing rates 2 fiscal years in advance of the year of
execution. DFAS personnel finalized the DFAS FY 2011 billing rates in early January
2010. Appendix B describes the DFAS rate development process.

Review of Internal Controls Over the Development of
Billing Rates
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses. DFAS did not comply with the DoD FMR guidance when it returned
$35.5 million to its customers in FY 2011 because DFAS Resource Management
personnel misinterpreted the Under Secretary of Defense (Comptroller)/Chief Financal
Officer, DoD (USD[C]/CFO), President’s Budget 2011 Resource Management
Decision (RMD) 700, Issue No. RF-D002-DFAS, believing that a specific amount should
be returned to each customer. In addition, DFAS personnel did not adjust billing rates for
all services for prior gains when it adjusted the FY 2012 billing rates for Output 11 to
return $128.7 million in positive AOR to its customers because DFAS had not developed
procedures to routinely compare costs and revenues at the output level so that it could
identify the causes for the increasing AOR. Finally, DFAS personnel did not establish a
policy to maintain sufficient documentation for billing rates. We will provide a copy of
the report to the senior official responsible for internal controls in DFAS.




                                             4
Finding A. Improper Method Used to Return
AOR to Customers in FY 2011
DFAS Resource Management personnel chose an improper method for returning
$35.5 million of AOR to customers in FY 2011. Specifically, DFAS personnel failed to
follow a directive from the USD(C)/CFO, Revolving Funds Directorate, not to use a
billing credit methodology, but to adjust the billing rates to comply with the DoD FMR.
This occurred because the DFAS Resource Management personnel misinterpreted the
President’s Budget 2011 RMD 700, Issue No. RF-D002-DFAS, believing that a specific
amount should be returned to each customer, which could be done only by billing credits
to DFAS customers. As a result, DFAS did not properly align its costs with its outputs,
potentially causing AOR to increase.

On August 31, 2011, we issued a memorandum to USD(C)/CFO, requesting his office to
determine whether the DFAS billing credit methodology improperly augmented
customers’ appropriations and to direct an appropriate course of corrective action. He
responded on November 8, 2011, concluding that the billing credit methodology did not
improperly augment customer appropriations. Therefore, he did not direct DFAS to take
any additional action. However, USD(C)/CFO personnel did not perform a documented
analysis to support this position. Without this information, the question remains whether
the use of billing credits had the equivalent impact on customer accounts as lowering
customer rates, which may have led DFAS to augment customer appropriations in
FY 2011.

AOR Increased From FY 2008 to FY 2010
According to fiscal year-end Accounting Reports 1307, 4 the DFAS recoverable AOR 5
increased from $101.8 million in FY 2008 to $161.1 million in FY 2010. Additionally,
the reports showed that DFAS’s FY 2010 Fund Balance with Treasury (FBWT) 6
increased to approximately $132 million, more than five times the FY 2008 ending
balance of $24.2 million. Table 1 shows the increases in DFAS’s AOR and FBWT from
FY 2008 through FY 2010.




4
  Accounting Report 1307 is the main source and official document for budget execution for working
capital funds.
5
  Recoverable AOR is the sum of the unadjusted AOR at the beginning of the year, prior-period
adjustments, and the NOR. Recoverable NOR is intended to disclose differences, if any, between NOR
reported on the Statement of Operations and the operating results used in the budget formulation of
stabilized billing rates. As a matter of policy, any amounts that a DoD Component requests be excluded
from its Defense Working Capital Fund rates, whether identified in the USD(C)/CFO guidance as
permissible or requested by the DoD Component, must be adequately documented and quantified. When
discussing AOR throughout the report, recoverable AOR is the amount discussed.
6
  FBWT is an entity asset account that reflects the available funds in the entity’s accounts with Treasury.

                                                      5
               Table 1. DFAS AOR and Cash Accumulation (in millions)

                       Fiscal Year           AOR Amount               FBWT
                         Ending
                           2008                  $101.8               $24.2
                           2009                   117.2                 72.1
                           2010                   161.1                132.0

The increase in AOR indicates that DFAS charged its customers more than the costs it
incurred to provide them with billed services.

The President’s Budget 2011 RMD 700, Issue No. RF-D002-DFAS, directed DFAS to
adjust FY 2011 customer rates to return $35.5 million of the positive AOR. Revolving
Funds Directorate personnel stated that they intended for the rate changes to lessen the
amount of revenue DFAS would collect from its customers during FY 2011, thereby
decreasing the DFAS AOR. Within RMD 700, Revolving Funds Directorate personnel
identified the following factors as justification for the DFAS rate reduction.

    •   DFAS had positive AOR and a cash gain of approximately $72.1 million in
        FY 2009.

    •   Actual 2009 workcount volume exceeded budgeted amounts and was expected to
        continue in FY 2010.

    •   The FY 2010 cash balance would continue to grow, so a rate decrease was
        required in FY 2011 to stabilize the rate structure and cash growth.

Within RMD 700, Revolving Funds Directorate personnel identified projected amounts
to be returned to specific customers.

DFAS Personnel Did Not Follow Guidance in
Returning AOR
Contrary to guidance from the Revolving Funds Directorate, DFAS personnel returned
$35.5 million of AOR surplus as billing credits in FY 2011. From January 2011 through
August 2011, DFAS returned the AOR to DoD customers by crediting the customer’s
Military Interdepartmental Purchase Request applicable at the time of the return. DFAS
credited $32.8 million to its five major customers. 7 Table 2 provides a breakdown of the
billing credit amounts issued by DFAS.




7
 DFAS returned the remaining $2.7 million to 24 other Defense organizations. The DoD Office of
Inspector General was one of the 24 other organizations.

                                                  6
                 Table 2. Billing Credits Issued by DFAS (in millions)
                                                  Amount DFAS Credited
          DFAS Customer
                                                   to Customers on Bills
   Army                                                      $15.6
   Navy                                                        7.2
   Air Force                                                   8.0
   Marine Corps                                                1.7
   DLA                                                         0.3
   Other DFAS Customers                                        2.7
       Total                                                 $35.5

By providing billing credits to its customers, rather than adjusting rates to prevent AOR
growth, DFAS failed to comply with DoD FMR, volume 2A, chapter 1.

DFAS Personnel Misinterpreted Guidance
DFAS Resource Management personnel stated that when reviewing RMD 700, they
believed the amounts listed were exact amounts that USD(C)/CFO wanted each customer
                                    to receive. However, in correspondence with DFAS
  Revolving Funds Directorate       personnel in December 2010, Revolving Funds
    personnel informed DFAS         Directorate personnel stated that DFAS was not
    that returning the positive     responsible for ensuring that customer bills were
     AOR using billing credits      decreased by the exact amount listed in RMD 700.
    was not approved because        On December 30, 2010, Revolving Funds Directorate
    doing so did not adhere to      personnel informed DFAS that returning the positive
      DoD FMR guidance.             AOR using billing credits was not approved because
                                    doing so did not adhere to DoD FMR guidance.
Revolving Funds Directorate personnel provided DFAS the following reasons for
denying the proposed billing credit methodology.

   •    The RMD directed a total AOR amount to return to customers through the rates.
        However, DFAS was not responsible for ensuring that bills to individual
        customers decrease exactly as shown in the RMD.

   •    Rebating customers for the AOR surplus, rather than adjusting rates to prevent the
        growth of AOR, was not in compliance with the DoD FMR.

   •    The use of a rebate to customers implies customer rates were higher than actual
        costs on a recurring basis, which defeats the stabilized rate concept. Further, it
        can be viewed as extending the life of an appropriation – higher rates paid by
        customers in one year are returned in a rebate the following year for future use.



                                              7
DFAS returned the positive AOR in the form of a credit on the customer bills to prevent
the bias of too little or too much being returned to a specific customer, which could
happen if the AOR adjustment was built into the rates and DFAS did more or less work
for customers than was expected. DFAS Resource Management personnel stated that if
they adjusted the customer billing rates, they could not ensure that the customers received
the exact AOR return amounts identified in RMD 700. DFAS Resource Management
personnel concluded that the only way to ensure an exact refund of AOR listed on
RMD 700 was to provide a credit to each customer’s bill.

DFAS personnel acknowledged that the alternate methodology violated the DoD FMR,
but stated that revising billing rates within a budget execution year would have defeated
the purpose of setting and stabilizing rates 2 years in advance. According to DFAS
Resource Management personnel, reversing and correcting the bills would have required
a significant amount of rework and caused additional costs to be billed to their customers;
therefore, DFAS choose to issue billing credits.

Costs Were Not Properly Aligned With Outputs
By providing billing credits, DFAS personel did not properly align its costs with its
outputs. By not aligning the costs with outputs, DFAS could cause the AOR to increase
further, which would eventually lead to future billing rate adjustments. In addition,
providing billing credits to organizations whose annual funds were overcharged in a prior
fiscal year could result in an augmentation of those appropriations.

The term “augmentation” refers to an action taken by an agency which increases the
effective amount of funds available in that agency’s appropriation. This generally results
in obligations and expenditures by that agency in excess of the amount originally
appropriated by Congress. Augmentation is considered a violation of law because
Congress appropriates a specific amount of funding to agencies for specific purposes
during a specific period of time. If an agency obtains additional funding from another
source, unless provided for by another law, it has more budget authority than Congress
provided.

The basis for the prohibition against augmentation is that the action would normally
result in a violation of one or more of the following legal provisions:

   •   Article I, Section 9, Clause 7 of the Constitution, which states, “No money shall
       be drawn from the Treasury, but in Consequence of Appropriations made by law.”

   •   Title 31, United States Code (U.S.C.), Section 1301 (a) – the “Purpose Statute,”
       which states, “Appropriations shall be applied only to the objects for which the
       appropriations were made, except as otherwise provided by law.

   •   Title 31, U.S.C., Section 3302 (b) – the “Miscellaneous Receipts Statute,” which
       states, “Except as [otherwise provided] an official or agent of the Government
       receiving money for the Government from any source shall deposit the money in
       the Treasury as soon as practicable without deduction for any charge or claim.”

                                            8
By returning the positive AOR using billing credits, DFAS may have extended the life of
an annual appropriation beyond the lawful period for new obligations. This situation
could give the appearance of improperly augmenting appropriated funds by the amount of
the billing credit.

USD(C)/CFO Was Notified and Responded
On August 31, 2011, we issued a memorandum to USD(C)/CFO that requested his office
direct an appropriate course of action, such as directing DFAS to reverse the billing
credits applied to its customers for the return of the excess AOR and either adjust future
rates accordingly or grant an exception to the DoD FMR (see Appendix C). On
November 8, 2011, in response to the memorandum, the USD(C)/CFO stated that he
concluded, after legal and comptroller review, that the DFAS billing credit methodology
did not augment customer appropriations for FY 2011 by enabling customers to operate
above those levels that would have existed had DFAS lowered its rates for FY 2011 (see
Appendix D). He also stated that it was not necessary to waive any provisions in the
DoD FMR or require adjustment to FY 2011 rates or billings. The USD(C)/CFO’s
position was that the issuance of billing credits had an equivalent impact on customer
accounts as would the lowering of customer rates. However, he did not explain how the
issuance of billing credits had the equivalent impact on customer accounts.

Documentation provided by Revolving Funds Directorate personnel indicated that the
DoD General Counsel advised that no augmentation of customer appropriations had
occurred and the billing credit methodology had an equivalent impact on customer
accounts as lowering customer rates. However, Revolving Funds Directorate personnel
could not provide support to show that General Counsel had done any analysis to support
these assertions.

The position that billing credits had an equivalent impact on customer accounts as
lowering customer rates contradicted earlier communication between Revolving Funds
Directorate personnel and DFAS personnel. Without support to demonstrate that
individual credits for past purchases would equal reduced rates in a future year, we
maintain that the use of billing credits could have augmented customer appropriations
and was a violation of the DoD FMR.

USD(C)/CFO personnel should document the analysis supporting the decision to allow
billing credits as an alternate methodology to adjusting rates as well as the determination
that using billing credits did not extend the life of customer funds. If USD(C)/CFO
personnel can provide a business case that supports the position that returning positive
AOR through billing credits is an acceptable course of action that does not result in
augmenting customer appropriations and has an equivalent impact on customer accounts,
then it should change the DoD FMR. If this is not his position, then the USD(C)/CFO
should ensure that DFAS adheres to the DoD FMR requirements in returning AOR
surpluses through customer rates.



                                             9
Conclusion
The DoD FMR defines how a Defense Working Capital Fund entity, such as DFAS,
should return an AOR surplus. In returning $35.5 million to DoD customers through
billing credits from January 2011 through August 2011, DFAS did not comply with the
DoD FMR and explicit guidance from the Revolving Funds Directorate. In response to
our memorandum dated August 31, 2011, USD(C)/CFO stated that the DFAS billing
credit methodology did not augment customer appropriations for FY 2011 and had an
equivalent impact on customer accounts as would the lowering of customer rates.
Although he stated that it was not necessary to grant an exception to the DoD FMR or
adjust FY 2011 rates or billings, he did not dispute that DFAS did not follow the
DoD FMR.

Additionally, Revolving Funds Directorate personnel could not provide documentation to
support that the DFAS billing credit methodology had an equivalent impact on customer
accounts as would lowering customer rates and did not extend the life of customer funds.
By not adjusting billing rates for the positive AOR, DFAS did not properly align its costs
with its outputs and increased its risk of having to return additional AOR in the future.

Management Comments on the Finding and
Our Response
USD(C)/CFO Comments on the Augmentation of FY 2011
Funding Levels Caused by DFAS Issuing Billing Credits
USD(C)/CFO provided comments on the finding discussion. He stated that he did not
agree with the conclusion that FY 2011 appropriation accounts of DFAS customers might
have been augmented by DFAS’s issuance of billing credits in lieu of downwardly
adjusting FY 2011 customer rates. Further, he stated that RMD 700, Issue No. RF-D002-
DFAS, instructed DFAS to adjust rates to return approximately $35.5 million of AOR to
its customers and decremented each customer’s funding request by an amount
commensurate with that reduction. Customer requirements were not reduced, but their
budget requests were reduced in anticipation of a lower bill from DFAS.

USD(C)/CFO also stated that in the year of execution, without action by DFAS, customer
Operation and Maintenance appropriations available for non-DFAS requirements would,
in effect, have been reduced by approximately $35.5 million below amounts budgeted.
Therefore, he concluded that the impact on the FY 2011 customer appropriation accounts
by DFAS’s issuing the billing credits was equivalent to the effect on such appropriations
had DFAS decreased FY 2011 customer rates.

Our Response
We acknowledge that RMD 700, Issue No. RF-D002-DFAS, instructed DFAS to return
approximately $35.5 million of AOR to its customers and decremented each customer’s
funding request by an amount commensurate with that reduction. However, the return of
an AOR surplus to customers indicates that the rates charged by DFAS exceeded DFAS
costs in previous years. By returning the AOR surplus using billing credits in subsequent

                                           10
years, DFAS may have extended the life of an annual appropriation, such as Operation
and Maintenance funds. In addition, depending on how the estimated workcounts
compared to actual workcounts, the amounts billed to DFAS customers may have been
more or less than the billing credits. For example, as stated in Finding C, DFAS
significantly underestimated Air Force workcounts and overestimated Marine Corps
workcounts for Output 11 at the major customer level in FYs 2008, 2009, and 2010.

Recommendation, Management Comments, and
Our Response
A. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, document the analysis supporting the decision to allow
billing credits as an alternate methodology to adjusting rates and the determination
that using billing credits did not extend the life of customer funds. If he can provide
a business case that supports this position, he should change DoD policy and allow
this as an alternate approach for returning positive Accumulated Operating Results.
Otherwise, he should enforce compliance with approved policies for returning
Accumulated Operating Results through rate adjustments.

USD(C)/CFO Comments
USD(C)/CFO partially agreed with the recommendation. He stated that his office
decided not to issue policy to allow working capital fund activities to issue billing credits
as a means of reducing AOR because the adjustment of rates charged to working capital
fund customers remains the authorized method for reducing AOR. Therefore, he stated,
DoD would not undertake a business case analysis to compare the effects of reducing
customer rates with the effects of issuing billing credits. However, he stated that the
DoD FMR, volume 2B, chapter 9, would be updated to clarify and strengthen guidance
on management-directed AOR reductions.

Our Response
Comments from USD(C)/CFO were generally responsive. Without a business case
analysis, we agree that the USD(C)/CFO should not change DoD policy to allow working
capital fund activities to issue billing credits as an alternate methodology to adjusting
rates. The use of billing credits implies that customers rates were higher than actual costs
on a recurring basis, which defeats the stabilized rates concept and should be avoided.
Clarifying and strengthening guidance in the DoD FMR on management-directed AOR
reductions will be helpful, but ineffective if DoD policy is not enforced. The
USD(C)/CFO comments met the intent of the recommendation, and no additional
comments are necessary.




                                             11
Finding B. Return of AOR Distorted FY 2012
Billing Rates
DFAS Resource Management personnel did not adjust the FY 2012 billing rates for
the 29 rate-based outputs 8 for prior gains to ensure reimbursable costs would be
recovered on a break-even basis. Instead, DFAS returned $128.7 million to DoD
customers by reducing the FY 2012 billing rates for Output 11 (Accounting Services).
This occurred because DFAS had not developed procedures to routinely compare costs
and revenues at the output level so that it could identify the causes for the increasing
AOR. As a result, DFAS distorted FY 2012 billing rates for Output 11, and DFAS
customers had more concerns over the development of the Output 11 billing rates.
DFAS’s efforts to improve the cost allocation process should lead to more accurate
billing rates and better information for customers to develop realistic plans and budgets.

DoD Had Guidance for Adjusting Customer Rates
DoD FMR, volume 11B, chapter 1, “Defense Working Capital Funds General Policies
and Requirements,” October 2002, states that Defense Working Capital Fund activities
operate on a break-even basis and that customer rates are to be established on an end-
product basis to recover, over the long term, the cost of products or services to be
provided. It further states that the budget process is the mechanism used to ensure that
adequate resources are budgeted in the customer’s appropriated fund accounts to pay the
established rates.

DoD FMR, volume 2B, chapter 9, states that, except in unusual circumstances, prices for
the budget year are to be set to break even over the long run. Customer rates are set to
achieve a zero AOR over time. The AOR and the NOR are the primary financial
management targets of a Defense Working Capital Fund entity and they are used in
conjunction with other performance metrics to assess overall operational effectiveness.
The Revolving Funds Directorate established an AOR goal for DFAS of $80.4 million in
FY 2011. In the President’s Budget submission in February 2011, DFAS included an
FY 2012 AOR estimate of $55.5 million. However, in October 2011, the Revolving
Funds Directorate established an AOR goal of zero for DFAS in FY 2012.

The Revolving Funds Directorate and DFAS planned additional actions to reduce the
AOR that had increased to $177.7 million at the end of FY 2011. In the FY 2012
President’s Budget Request submission to the USD(C)/CFO, dated August 2010, DFAS
identified $50 million that it could return to customers during FY 2012. During the
review of the FY 2012 DFAS President’s Budget Request submission, the Revolving
Funds Directorate determined that DFAS could return an additional $20 million of AOR
during FY 2012. In December 2010, the Revolving Funds Directorate formally directed


8
 DFAS has 29 rate-based outputs. In addition to the rate-based outputs, DFAS provided two services
billed at actual cost: Support to Others and Direct System Reimbursement.

                                                  12
DFAS to return the $20 million in the President’s Budget 2012 RMD 700,
Section 700A2, Issue No. RF-005. Further, after approving the FY 2011 operating costs
in October 2010, the Revolving Funds Directorate reduced the FY 2011 DFAS annual
operating budget by $58.7 million in the President’s Budget 2012 RMDs 702 and 703A2.
However, because the FY 2011 rates had already been established, DFAS reduced the
FY 2012 rates by an additional $58.7 million. In total, DFAS had $128.7 million to
return to its customers in FY 2012. Table 3 summarizes the sources of the FY 2012 AOR
return.

                      Table 3. FY 2012 AOR Return (in millions)
                        Source of AOR Return                             AOR Return
     DFAS FY 2012 President’s Budget Request Submission                      $50.0
     USD(C)/CFO President’s Budget 2012 RMD 700                                20.0
     USD(C)/CFO FY 2011 Budget Reduction                                       58.7
       Total                                                                $128.7

DFAS Could Not Identify the Outputs That Caused AOR
to Increase
DFAS personnel did not adjust FY 2012 billing rates for all services for prior gains to
ensure that reimbursable costs would be recovered on a break-even basis, which was not
consistent with guidance in the DoD FMR. Rather than adjusting all billing rates to
return the AOR surplus, DFAS only reduced the rate for Output 11 (Accounting Services)
by $128.7 million. According to volume 11B, chapter 1, a Defense Working Capital
Fund should establish, whenever feasible, standard prices or stabilized rates and unit
prices for goods and services, thus enabling ordering agencies to more confidently plan
and budget.

According to a DFAS Resource Management representative, the decision to reduce only
the Output 11 rate was made by managers in DFAS Resource Management. DFAS
Resource Management personnel provided senior DFAS officials with two options:
either apply the positive AOR return across multiple outputs or to Output 11. DFAS
Resource Management managers, after conferring with Revolving Funds Directorate
personnel, chose to apply the positive AOR to Output 11. The Revolving Funds
Directorate personnel approved the DFAS methodology for returning the entire AOR
amount via a single output. DFAS personnel stated that the most equitable manner to
return the funds was to factor the entire $128.7 million into the Output 11 billing rates for
the following reasons:

   •   DFAS performed accounting services for each of its customers.
   •   Output 11 had a large enough cost base to absorb the amount of the adjustment.
   •   DFAS could better track the amount being returned by adjusting only one output.



                                             13
However, by reducing the reimbursable costs of only one output, DFAS did not take into
account the revenues and costs of the other outputs that contributed to the growth in
NOR, which increases or decreases the AOR annually. A more equitable manner and an
approach more consistent with the DoD FMR would have been for DFAS to apply the
positive AOR to the outputs that caused the AOR. DFAS Resource Management
personnel could not take this approach because they could not identify which outputs
caused the positive AOR.

DFAS personnel had not developed procedures to routinely compare costs and revenue at
the output level so that they could identify the specific reasons for the increasing AOR.
                                     As a result, DFAS could not ensure that the AOR
     DFAS personnel had not          would be returned to those customers who use the
     developed procedures to         services which contributed to the increased AOR.
     routinely compare costs         Although each customer would receive some benefit
    and revenue at the output        by DFAS’s returning the $128.7 million in AOR
      level so that they could       surplus through Output 11, the amount being returned
   identify the specific reasons     would vary based on the amount of work DFAS
     for the increasing AOR.         executed for each customer in FY 2012, which might
                                     not accurately reflect the true cost of DFAS services.
To ensure an equitable return of AOR and avoid artificial fluctuations in customer rates
and budget estimates, DFAS should establish procedures to routinely identify which
outputs are responsible for significant increases and decreases in the NOR. By
identifying the outputs responsible for significant increases and decreases in NOR, DFAS
could charge customers more reliable rates for services provided.

AOR Return Distorted Billing Rates and Increased
Customer Concerns
Applying the entire $128.7 million to Output 11 distorted the FY 2012 Output 11 billing
rates charged to DoD customers. 9 For its five major customers, DFAS significantly
reduced the billing rates for Output 11 in FY 2012 by 29 percent to 39 percent. Table 4
shows the reduction in Output 11 rates from FY 2011 to FY 2012.

                     Table 4. Output 11 Rates for FYs 2011 and 2012
                       DoD                                   Percent
                                  FY 2011     FY 2012
                   Component                                Decrease
                  Army             $71.21      $45.90         35.5
                  Navy              73.73       46.79         36.5
                  Air Force         72.55       44.04         39.3
                  Marine Corps      74.01       49.21         33.5
                  DLA               70.43       49.43         29.8



9
 Output 11 (Accounting Services) is a customer-unique rate; therefore, it has a different rate for each
customer.

                                                     14
For example, DFAS charged Army customers $45.90 per direct billable hour for
accounting services starting October 1, 2011, $25.31 less per direct billable hour than in
FY 2011. (See Appendix E for further details regarding the reductions in rates.)

Customers Were Concerned About the Lack of
Information on the Rate Development Process
Some DFAS customers expressed concerns about the reliability of DFAS rates and the
workcounts used to estimate rates, especially Output 11. DFAS client executive liaisons
coordinated the FY 2011 estimated workcounts for Output 4 (Retired Military Pay
Accounts) and Output 11 with their customers to obtain concurrence on the projections.
The Military Services agreed to the Output 4 estimates, 10 and each of the Military
Services, along with DLA, agreed verbally or in writing to the estimated Output 11
workcounts.

However, Army, Navy, and DLA personnel expressed concerns about the process.
Specifically, they stated that the time DFAS allowed them to coordinate the workcounts
was not sufficient to adequately respond to the workcount estimates. In addition, Army
personnel stated that they did not have sufficient information on the FY 2011 workcounts
and costs and lacked the information necessary to reduce their costs. Army personnel
also expressed concerns that additional funding would be needed to cover the artificially
low FY 2012 Output 11 funding requirement. Output 11 rates were expected to increase
significantly in FY 2013 if the Revolving Funds Directorate personnel did not direct any
additional AOR return. DFAS should provide sufficient information to its customers so
that they can better understand the accounting services provided and take appropriate
action to reduce their costs.

Inability to Reconcile Output 11 Workcounts
DFAS was unable to identify anyone who routinely reconciled the direct productive labor
hours in the e-Biz system to the Output 11 workcounts on the customer bills. DFAS
personnel stated that they could trace a customer’s bill back to the timekeeping data, but
the reconciliation would be very difficult. They also stated that they did not believe that
customer bills were intended to be able to reconcile to the DFAS timekeeping data.
However, according to DFAS’s workcount measure definition, Output 11 is billed as
direct productive civilian, contractor, military, and foreign national hours associated with
employees performing accounting services. Although no additional hours were to be
distributed to customers above those directly reported by employees in e-Biz and certified
as correct by supervisors, DFAS had limited assurance that this occurred. DFAS should
develop procedures for reconciling the Output 11 workcounts billed to customers to the
direct, productive labor hours in the timekeeping system.




10
 DFAS only provides Output 4 (Retired Military Pay Accounts) to Army, Navy, Air Force, and Marine
Corps customers.

                                                15
Unit Cost Effort Should Improve the Cost Allocation
Process
In FY 2010, DFAS initiated an effort to improve its cost allocation in an attempt to
identify unassigned costs, which should help identify the AOR growth as well as better
align costs with specific outputs. Revolving Funds Directorate personnel recognized in
the President’s Budget 2011 RMD 700 that DFAS faced challenges evaluating prior-year
execution data and reconciling actual cost data against budgetary rates. In the RMD,
Revolving Fund Directorate personnel directed DFAS to report on its efforts to improve
its rate development process by comparing actual costs from previous years to the
amounts that were built into the rate structure.

DFAS personnel stated that the DFAS unit cost effort was an endeavor to reinstitute a
process that was in place before the implementation of the e-Biz timekeeping module in
October 2002. Further, they stated that the FY 2010 focus was on internal efforts to
improve the DFAS cost allocation methodology. During FY 2010, DFAS defined a new
cost allocation process and designed a structure for Agency Unit Cost, Agency Revenue/
Cost, and Strategic Unit Cost reporting. Beginning in FY 2011, the focus was on
reporting metrics. Planned reporting requirements include the following items.

   •   Agency Unit Cost. A monthly measure with an official report to the DFAS
       Director, which provides both the budgeted and executed unit cost data by DFAS
       cost indicator for various output and product levels.

   •   Agency Revenue/Cost. A quarterly measure to provide year-to-date revenue and
       execution cost performance at the agency and primary client levels.

   •   Strategic Unit Cost. A quarterly measure that provides Price/Usage variance
       data.

In May 2011, DFAS began unit cost reporting to the DFAS Director for specific DFAS
outputs. In July 2011, DFAS began using an Off-Line Cost Allocation database to
allocate cost to both the output and client levels in preparation of the rates for the
President’s Budget Review 2013. DFAS also combined the unit cost reporting with some
productivity reporting to provide a summary of unit cost reporting budget variances by
output. According to a DFAS Resource Management personnel, DFAS has been able to
nearly reach a sustainment phase of monthly unit cost reviews after working with the
DFAS sites and organizations to fine-tune its unit cost reports. Beginning in FY 2012,
DFAS unit cost reporting is to use both budget and execution data from the Off-Line Cost
Allocation database.

According to the DFAS Resource Management personnel, DFAS was already seeing the
benefits of the unit cost analysis as it allowed DFAS to more properly align costs and
properly resource activities. DFAS also anticipated realizing efficiencies, identifying
areas where cost allocation corrections needed to be made in the billing rates, and
identifying trends by reporting both the unit cost and productivity together. The DFAS

                                          16
Resource Management representative stated the goal was to have better cost allocations
within the organization, which would allow it to better identify its cost-reimbursable
requirements. Although we did not analyze the unit cost effort, these efforts demonstrate
the DFAS commitment to properly identifying and allocating costs to provide accurate
billing rates to its customers. As part of reviewing and improving upon its cost allocation
methodology, DFAS should provide its customers with a monthly comparative analysis
of actual and anticipated workcounts so customers could take action and have better
visibility and understanding of execution issues.

Conclusion
DFAS Resource Management personnel did not comply with DoD FMR requirements
when it adjusted the FY 2012 billing rate for Output 11 in order to return $128.7 million
in AOR surplus to its customers. Adjusting the billing rate for only 1 of the 29 direct
billable outputs DFAS regularly provides its customers did not meet the goal of stabilized
rates and prices.

Rates are required to be established during the budget process at levels estimated to
recover the budgeted costs of goods and services to be provided, including prior-period
gains and losses. Because DFAS personnel did not have procedures to identify the
specific cause of AOR increases, they were returning the positive AOR through a
reduction of a single output billing rate during FY 2012. In doing so, DFAS management
could not ensure that AOR would be returned to those customers who used the services
that caused the positive AOR.

In addition, DFAS personnel should evaluate the accuracy of budgeted rates through a
comparison with actual execution data in response to the President’s Budget 2011
RMD 700, Issue No. RF-D002-DFAS, and they should provide customers with the
information they need to better understand accounting services DFAS personnel
performed and the variance between anticipated levels of service and actual execution
data. This is especially important for Output 11 because accounting services are vaguely
defined and billed as direct, productive labor hours.

Recommendations, Management Comments, and
Our Response
B. We recommend that the Defense Finance and Accounting Service, Director of
Resource Management:

    1. Establish procedures to routinely identify which outputs are responsible for
significant increases and decreases in Net Operating Results.

Defense Finance and Accounting Service Comments
The DFAS Chief Financial Officer (also serving as the DFAS Director of Resource
Management) agreed and stated that DFAS has developed and implemented a Unit Cost
analysis capability that allows for the identification of output execution revenue and cost


                                            17
variances from the budgeted plan and identifies the impact each output has on increases
and decreases to the DFAS NOR.

Our Response
Comments from the DFAS Chief Financial Officer were responsive, and the actions met
the intent of the recommendation.

   2. Develop procedures for reconciling the Output 11 workcounts billed to
customers to the direct, productive labor hours in the timekeeping system.

Defense Finance and Accounting Service Comments
The DFAS Chief Financial Officer agreed and stated that the DFAS timekeeping system
does not have the capability to link individual employee records to customer bills, but
does provide detailed organizational information allowing DFAS to reconcile
timekeeping data between the revenue reflected on its financial statements and the
customer bills.

Our Response
The DFAS comments were partially responsive. DFAS should be able to reconcile
timekeeping data between the revenue reflected on its financial statements and customer
bills. However, DFAS did not state how it would use the detailed organizational
information in its timekeeping system to reconcile the Output 11 workcounts billed to
customers to the direct, productive labor hours in the timekeeping system.

DFAS should also be able to reconcile Output 11 workcounts to the direct, productive
labor hours in the timekeeping system. DFAS customers should have assurance that only
hours worked by DFAS personnel while performing accounting services are being billed
to them.

We request that the DFAS Chief Financial Officer reconsider her response to the
recommendation and provide additional comments on the final report addressing DFAS’s
plans for reconciling Output 11 workcounts to the direct labor hours in the timekeeping
system.

   3. Provide customers with a monthly comparative analysis of actual and
anticipated workcounts so customers can take actions and have better visibility and
understanding of execution issues.

Defense Finance and Accounting Service Comments
The DFAS Chief Financial Officer agreed and stated that the DFAS Client Executive
staff provides customers with a monthly breakout of billing, including workload/
workcount execution year-to-date by output and an adjusted estimate of anticipated
workload/workcounts for the remainder of the year.




                                           18
   4. Provide sufficient information to customers so that they can understand the
accounting services performed and how they contribute to increased Defense
Finance and Accounting Service costs and workload.

Defense Finance and Accounting Service Comments
The DFAS Chief Financial Officer agreed and stated that DFAS has initiated a product
that provides further transparency of direct billable hours, identifying the specific type of
accounting services being performed. This product would be coupled with monthly
workload updates to the customers, providing a forum for DFAS and its customers to
discuss costs and future estimates.

Our Response
Comments from the DFAS Chief Financial Officer were responsive, and the actions met
the intent of the recommendation.




                                             19
Finding C. DFAS Needs to Maintain
Supporting Documentation for Workcounts
and Costs
DFAS Resource Management personnel complied with certain provisions of the rate
development requirements in section 2208, title 10, U.S.C. (10 U.S.C. § 2208 [2004]),
and the DoD FMR for submitting budget estimates in support of billing rates. They also
took specific actions to reduce DFAS billing rates through greater efficiencies. However,
DFAS personnel did not maintain sufficient support for the workcounts and direct costs
they estimated for Outputs 4 and 11. This occurred because DFAS did not establish a
policy to maintain budgetary documentation in accordance with the National Archives
and Records Administration (NARA) General Records Schedule No. 5. As a result,
DFAS personnel could not demonstrate that customers were not overbilled or underbilled
for services rendered. DFAS also could not demonstrate how actions taken to achieve
greater efficiencies resulted in lower rates.

DFAS Complied With Some Rate Development Guidance
DFAS personnel complied with certain provisions of 10 U.S.C. § 2208 (2004) and the
DoD FMR. Specifically, they charged amounts necessary to recover the full costs of
goods and services provided for Outputs 4 and 11, including amounts for depreciation of
capital assets in compliance with 10 U.S.C. § 2208 (2004). According to
10 U.S.C. § 2208 (2004), charges for goods and services provided by an activity through
a working capital fund must include the following:

     •   amounts necessary to recover the full costs of goods and services provided for
         that activity; and
     •   amounts for depreciation of capital assets, set in accordance with generally
         accepted accounting principles. 11

However, DFAS personnel made a minor error in computing depreciation costs included
in Output 4. DFAS incorrectly double-counted $278,703 in estimated depreciation in
computing the FY 2011 billing rate for Output 4. Although $278,703 of estimated
depreciation costs should not have been included in the rates, it only translated to a
$.01 rate increase for DFAS customers, which we considered to be insignificant.

DFAS personnel also complied with DoD FMR requirements by:

     •   projecting and separately identifying customer requirements,
     •   establishing customer rates on an end-product basis,


11
  We did not verify whether depreciation was computed in accordance with generally accepted accounting
principles.

                                                  20
   •   establishing unit cost rates, and
   •   including the costs of management improvement initiatives in the rates.

The DoD FMR also requires that prices remain fixed during the year of execution. DFAS
charged stabilized rates to the Army, Navy, Air Force, Marine Corps, and DLA for
Outputs 4 and 11 during FY 2011 in compliance with the DoD FMR. However, DFAS
did not adjust its billing rates as required by DoD FMR, volume 2A, chapter 1, when it
returned a $35.5 million AOR surplus to its customers in FY 2011. Finding A discusses
our concerns with how DFAS returned the AOR surplus to DoD customers.

DFAS Did Not Maintain Documentation on Workcounts
and Direct Costs for Outputs 4 and 11
DFAS did not maintain the necessary detailed documentation to support the estimated
workcounts or direct costs used to calculate the FY 2011 rates for Outputs 4 and 11,
                                    finalized in January 2010. DFAS calculated the
       The DFAS Resource            FY 2011 rates for Outputs 4 and 11 based upon the
  Management Office provided        estimated workcounts and costs within DPBS. For a
   some documentation, but it       statistical sample of workcounts and direct costs
    could not provide detailed      supporting Outputs 4 and 11 in DPBS, we requested
    information to support the      the supporting documentation for the estimates that
  workcounts and direct costs.      DFAS functional offices had submitted to the DFAS
                                    Resource Management Office for entry into DPBS.
(The DFAS rate development process is described in Appendix B. Appendix F discusses
the universe and the sample selection.) The DFAS Resource Management Office
provided some documentation, but it could not provide detailed information to support
the workcounts and direct costs.

DFAS Did Not Maintain Sufficient Support for Estimated
Workcounts
DFAS personnel did not maintain the necessary detailed documentation to support the
FY 2011 estimated workcounts. Specifically, DFAS personnel did not support the
methodology they used to establish their estimates for the Army, Navy, Air Force,
Marine Corps, and DLA. DFAS estimated that workcounts for Output 4 totaled
33.2 million retired military pay accounts. For its five major customers, DFAS estimated
that workcounts for Output 11 totaled 5.7 million direct billable hours.

DFAS personnel provided the workcounts executed for prior fiscal years, the FY 2011
workcount baselines, and adjustments as well as general reasons for the adjustments.
However, they did not demonstrate how historical data were used to make the
projections, and they did not include enough detail in their rationale to validate their
methodology. Therefore, in order to determine whether the workcount estimates were
reasonable projections, we compared the estimated workcounts for Outputs 4 and 11 to
the workcounts executed (billed amounts) for the Army, Navy, Air Force, Marine Corps,
and DLA in FYs 2008 through 2010.


                                           21
   •   Output 4. In March 2009, DFAS established the FY 2011 estimated workcounts
       for Output 4 based on the projection that retired military pay accounts would
       grow at an annual rate of approximately 1.2 percent for all customers from
       FY 2009 through FY 2011, using the FY 2008 (DPBS President’s Budget 2008)
       workcounts as a baseline. We compared the Output 4 workcount estimates with
       the executed workcounts for FYs 2008, 2009, and 2010 and determined that the
       executed workcounts were within 3 percent of the estimates. Based on our
       analysis, the Output 4 workcount estimates appeared to be reasonable projections.

   •   Output 11. DFAS workcount estimates for FY 2011 were less than during
       FYs 2008, 2009, and 2010, but not by a wide margin. However, we found
       significant variances when comparing estimated to executed workcounts at the
       major customer level. For example, DFAS significantly underestimated Air Force
       workcounts in FYs 2008, 2009, and 2010. Conversely, DFAS significantly
       overestimated the Marine Corps workcounts in FYs 2008, 2009, and 2010. The
       FY 2011 executed workcounts, at the output level, were within 1 percent of the
       workcount estimates. However, DFAS’s major customers still had concerns with
       the reliability of the FY 2011 workcount estimates for Output 11. (See Finding B
       for more discussion of customer concerns and Appendix E for additional analysis
       on the changes in rates and workload for Outputs 4 and 11 from FYs 2008
       through 2011.)

DFAS Did Not Maintain Sufficient Support for Estimated
Direct Costs
DFAS personnel did not maintain sufficient documentation to support cost estimates for
direct costs for Outputs 4 and 11. For five major customers, DFAS personnel did not
                                    maintain sufficient information to support the FY 2011
    For five major customers,       direct costs for Outputs 4 and 11, estimated at
     DFAS personnel did not         $52.9 million and $254.1 million, respectively. In
        maintain sufficient         response to our request for support, DFAS personnel
    information to support the      stated that supporting documentation was not available
     FY 2011 direct costs for       for direct costs of estimated labor, overtime, voluntary
   Outputs 4 and 11, estimated      separation incentive program, awards, travel, locally
       at $52.9 million and         procured supplies and materials, commercial
   $254.1 million, respectively.    purchases of equipment, Defense Printing Services,
                                    Defense Information Systems Agency support and
communication services, depreciation for software development, foreign national indirect
hire, equipment maintenance by contract, training, base operations support, and other
contracts and contractor workyears. Further, they stated that they did not have supporting
documentation for the FY 2011 baselines, productivity factors, average salaries, and the
training and travel factors that DFAS personnel used to estimate employee travel and
training.




                                            22
DFAS Did Not Retain Supporting Documentation
DFAS Resource Management personnel did not have sufficient detailed data to support
the estimated workcounts and direct costs for Outputs 4 and 11 in its FY 2011 budget
because they did not have a policy for the retention of supporting documentation used to
develop the DFAS budget and rates charged to customers. The NARA General Records
Schedule No. 5 states that cost statements, rough data, and similar materials accumulated
in the preparation of annual budget estimates, including duplicates of budget estimates
and justifications and related appropriation language sheets, narrative statements, and
related schedules can be destroyed 1 year after the close of the fiscal year covered by the
budget. This would include copies of reports the originating offices submitted to budget
offices.

Although DFAS personnel provided a significant amount of information and documents,
the data provided were insufficient to document the extent to which DFAS complied with
the FY 2011 – 2015 Integrated Program and Budget Submission Guidance issued by
USD(C)/CFO. This guidance required that estimates for costs of operations reflect the
best estimate of FY 2009 actual results. DFAS personnel could not prove that the
amounts used to calculate the rates were based on FY 2009 actual results or other source
documents. For example, DFAS personnel stated that actual salary and benefits data
were taken from the e-Biz Cost Accumulation module as of February 2009. However,
DFAS personnel could not demonstrate that the estimated labor or overtime costs in our
sample were based upon historical results. Consequently, DFAS could not demonstrate
that the estimated workcounts and direct costs were based upon historical data. To
comply with NARA General Records Schedule No. 5 and help DFAS better defend the
rate development process to DoD customers, the DFAS Director of Resource
Management should develop a policy for maintaining documentation in support of the
DFAS budget and rates.

Cost-Saving Initiatives
DFAS had taken actions to reduce rates through greater efficiencies. For example, DFAS
coordinated efforts with its major customers on the implementation of many different
Enterprise Resource Planning solutions and initiated numerous Lean6 projects within the
organization. However, because of the lack of detail in the documentation maintained,
DFAS could not show how those initiatives specifically impacted the workcount or cost
estimates and resulted in lower billing rates. For further information regarding DFAS
cost-saving initiatives, see Appendix G.

Conclusion
DFAS complied with certain provisions of the rate development requirements in
10 U.S.C. § 2208 (2004) and the DoD FMR. However, DFAS did not maintain
budgetary materials in conformance with NARA General Records Schedule No. 5.
Specifically, DFAS did not maintain sufficient support for the estimated workcounts and
direct costs used to compute the FY 2011 billing rates for Outputs 4 and 11. This
occurred because DFAS did not have an established policy to maintain budgetary
documentation. As a result, DFAS could not support whether the FY 2011 workcounts

                                            23
and direct costs for Outputs 4 and 11 that DFAS estimated for its five primary customers
complied with the FY 2011 - 2015 Integrated Program and Budget Submission Guidance
issued by USD(C)/CFO. DFAS should establish a policy to maintain sufficient, detailed
budgetary documentation in support of workcounts and costs used to establish customer
billing rates that could be used to demonstrated compliance with rate development
guidance, support and defend the rates and increasing AOR, and show how cost-savings
initiatives resulted in lower costs.

Recommendation, Management Comments, and
Our Response
C. We recommend that the Defense Finance and Accounting Service, Director of
Resource Management, develop policy to identify and retain budgetary
documentation in support of billing rate development.

Defense Finance and Accounting Service Comments
The DFAS Chief Financial Officer (also serving as the DFAS Director of Resource
Management) agreed and stated that DFAS developed a policy requiring specific
supporting documentation for all decisions regarding workcount and cost estimates and
the corresponding development of rates to be recorded and maintained for 2 years after
the year of execution.

Our Response
Comments from the DFAS Chief Financial Officer were responsive, and the actions met
the intent of the recommendation.




                                           24
Appendix A. Scope and Methodology
We conducted this performance audit from November 2010 through June 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We focused our review on FY 2011 estimated direct costs * for 2 of the 29 rate-based
DFAS outputs: Output 4 – Retired Military Pay Accounts and Output 11 – Accounting
Services. We selected Output 4 because it had the largest number of estimated
workcounts to be performed during FY 2011. We selected Output 11 because it was
estimated to be DFAS’s largest reimbursable dollar value output for FY 2011 based on
direct costs. Table A compares the total estimated workcounts and direct costs for
Outputs 4 and 11 to all other outputs in FY 2011.

            Table A. Comparison of Estimated Workcounts and Direct Costs
                         for Outputs 4 and 11 to All Outputs**
                  Output          Workcounts             Direct Costs
                      4                33,157,447          $52,868,082
                     11                 6,501,864          286,339,879
                All Others**           96,024,306          760,424,103
                 Total               135,683,617        $1,099,632,064
                  ** Support to Others (Output 18) and Direct Systems Reimbursement
                  (Output 61) were excluded from the count of workcounts (Output Category
                  “All Others”). Outputs 18 and 61 are reimbursed on a cost-incurred basis.
                  As such, there are no estimated workcounts, only estimated costs.

We reviewed the United States Code, USD(C)/CFO guidance, DoD FMR, and DFAS
policy and procedures regarding budgeting and output rate-setting; identified guidance
for computing stabilized billing rates; and identified NARA requirements for budgetary
data retention. We identified how DFAS estimated FY 2011 workcounts and direct costs
and how DFAS allocated system costs between Outputs 4 and 11. The scope of our
review encompassed the five major DFAS customers: the Army, Navy, Air Force,
Marine Corps, and DLA.

We obtained the DPBS data relevant to the President’s Budget 2011 from DFAS and
requested that the data include the FY 2011 cost, workyear, and workcount estimates.
Using DPBS system codes and field definitions, the DoD Office of Inspector General,
Quantitative Methods Division (QMD), selected a random sample of the estimated
workcounts and direct costs contained in DPBS for FY 2011. We reconciled the


*
  Although the largest, direct costs are only one element of costs DFAS must recover through its billing
rates. The other elements of cost are indirect costs and general and administrative costs.

                                                    25
FY 2011 cost estimates contained within DPBS to the DFAS Schedule 2 and to the
Annual Operating Budget approved by the USD(C)/CFO, Director of the Revolving
Funds Directorate.

We verified the accuracy of the computation of the FY 2011 billing rates for Outputs 4
and 11, analyzed the first quarter of FY 2011 actual versus estimated workcounts for
Outputs 4 and 11, and evaluated the value and form of the AOR returns in FY 2011 and
FY 2012. We identified and evaluated relevant internal controls over the rate-setting
process. We also attempted to reconcile timekeeping data in the e-Biz Momentum
Timekeeping module to the December 2010 billing statements created by e-Biz. Finally,
we identified and assessed efficiency actions taken by DFAS to lower its operating costs
and customer bills.

We also examined the DFAS procedures for returning $35.5 million of the AOR surplus
in FY 2011 and $128.7 million of the AOR surplus in FY 2012, including the
coordination between DFAS and representatives of the Revolving Funds Directorate.

Use of Computer-Processed Data
To perform this audit, we obtained FY 2011 budgetary data in DPBS for Outputs 4
and 11. We evaluated application controls over the data in the system. We determined
that there were adequate controls over the estimated workcount and cost data within
DPBS. However, we did not identify sufficient controls over the formulation of the
baseline data for which the workcount and cost estimates were derived. Therefore, we
were unable to test the reliability of the cost and workcount data entered into DPBS. The
lack of sufficient documentation to support the estimated workcount and cost data in
DPBS effectively prevented us from being able to assess the reliability of the computer-
processed data needed to perform a significant aspect of the audit. However, we reached
conclusions based on other data available to us that we determined to be sufficiently
reliable.

Use of Technical Assistance
QMD provided technical assistance through the development of a statistical sample of
data contained within DPBS for Outputs 4 and 11. Specifically, QMD analysts selected a
random sample of the estimated workcounts and direct costs contained in DPBS for
FY 2011. See Appendix F for detailed information concerning the work performed by
the QMD analysts.

Prior Coverage
No prior coverage has been conducted on the subject during the last 5 years.




                                           26
Appendix B. DFAS Development of
Workcounts and Costs
The DFAS rate development process begins with the President’s Budget from the prior
year. The workcounts, workyears, and cost baselines from the prior year’s President’s
Budget serve as the Program Budget Review baseline for the budget year under
development. Adjustments to the baselines, including those that result from the
USD(C)/CFO RMDs, produce the final estimates used to formulate the President’s
Budget submission for the budget year.

Development of Estimated Workcounts
DFAS personnel used workcounts to forecast the resources needed to operate in the
future and to determine future billing rates for each output they perform. DFAS client
executives were responsible for establishing the FY 2011 workcount estimates and
coordinating the estimates with the DFAS customers. DFAS Resource Management
personnel encouraged the client executive liaisons to use actual monthly and annual
historical workcount data to help make their projections. DFAS Resource Management
further directed the client executives to consider current and future DoD strategic
initiatives and to provide the estimates to their respective customers for feedback. Even
though the client executive liaisons initiated the workcount discussion, DFAS considered
the workcount estimates to be the desired output and requirements of the customer.

Development of Estimated Costs
The DFAS rate development manual states that after the estimated customer workcounts
are entered into DPBS, productivity factors are to be applied to determine the direct
workyears. Workyears are a derivate of the workcounts and are used in computing the
estimated costs to fill customer requirements. Added to the direct workyears are any
additional indirect and general and administrative workyears as approved by the DFAS
Requirements Assessment Conference. * DFAS components, such as Corporate
Organizations, Operations, and Strategic Business Management, are required to identify
their workyear and cost requirements for entry into DPBS.

The cost development process used by DFAS results in three categories of costs: direct,
indirect, and general and administrative costs. Along with detailed workcount estimates,
direct costs are driven by the following elements.

    •   Productivity Factors. Productivity factors for labor include historical, output-
        specific, full-time-equivalent productivity estimates. DFAS personnel adjust the
        factors for planned process changes and productivity improvements. In addition


*
  The Requirements Assessment Conference provides a DFAS forum to apply feasible and realistic quality
control to DFAS program planning, allowing the Agency to efficiently allocate resources tied to its
strategic goals. The Requirements Assessment Conference Board, selected by Deputy Directors from each
DFAS component, evaluates and substantiates funding and execution rationale as it relates to DFAS
strategic goals.

                                                  27
       to the labor productivity factors, DFAS personnel incorporate a hiring lag when
       calculating the estimated labor. Productivity factors also apply a standard
       per capita factor to estimate the costs for awards, travel, supply, and training.

   •   Programmatic Initiatives. Programmatic initiatives include project-specific
       direct cost requirements, such as the Military Services’s Enterprise Resource
       Programs.

   •   Systems Support. Systems support includes support provided for finance
       systems and associated disbursing systems aligned with outputs and customers.

Upon completion of the DFAS budget and the population of DPBS with the workcounts,
workyears, and costs, the rate computation process can begin. DFAS personnel calculate
the rates for each rate-based output from the estimated workcounts and costs. Rates are
calculated based upon the quantity of workcounts and the relationship of the costs to the
customers. DFAS personnel calculate both composite and customer-unique rates. A
composite rate is calculated for those outputs where the costs associated with the support
do not vary between customers. Composite rates apply to all customers. A customer-
unique rate is calculated for outputs in which the costs are unique to one or more
customers. DFAS personnel calculated a composite rate for Output 4 and customer-
unique rates for Output 11.

Resource Management Decision
A RMD reflects the decisions of the Secretary of Defense as to appropriate programs,
funding and broad strategic trade-offs related to programs, and resource levels identified
in the program objectives memorandum that is included in the annual defense budget
request. The defense budget request is included in the President’s Budget. The RMD
budget decision documents are issued during the joint review of DoD components’
budget submissions by analysts of the Office of the Secretary of Defense and the Office
of Management and Budget.

DFAS Outputs
In FY 2011, DFAS provided its customers with services that it categorized into
31 different outputs. Table B identifies the 31 outputs, along with the total estimated
costs for each output, according to the President’s Budget 2011.




                                            28
         Table B. FY 2011 DFAS Outputs and Estimated Costs (in millions)
                                                                              FY 2011
Output                                    Title                            Estimated Cost
  1       Civilian Pay – DoD – Manual Leave and Earnings Statement (LES)       $32.69
  3       Active Military Pay Accounts                                         154.25
  4       Retired Military Retired Pay Accounts                                 74.83
  5       Reserve Military Pay Accounts                                         49.80
          Contract Payments – Mechanization of Contract Administration
  6                                                                             37.46
          Services (MOCAS) Composite
  7       Travel Vouchers Computed and Paid                                     33.17
  9       Commercial Invoices Paid                                             101.34
  10      Out of Service Debt Cases – Persons                                   21.09
  11      Accounting Services – Direct Billable Hours                          467.00
  12      Accounting and Finance Support – Commissaries                           4.87
  14      Foreign Military Sales – Direct Billable Hours                        25.72
  16      Direct Billable Hours MOCAS Reconciliation                            19.26
  18      Support to Others                                                    192.79
  19      DLA Enterprise Business System – Manual                                 7.21
  20      Commercial / Vendor Debt Cases                                          1.09
  21      Civilian Pay – DoD – Electronic LES                                   51.06
  24      Technology Services – Direct Billable Hours                           22.01
  26      Contract Payments MOCAS (Electronic Commerce Composite)               11.82
  27      Travel Vouchers Paid – Disbursement Only                                9.88
  29      Commercial Payments – Electronic Commerce                             23.06
  30      DLA Enterprise Business System – Electronic Commerce                  11.31
  31      Contract Payments – Defense Commissary Agency                           5.39
          Contract Payments – Defense Information Technology Contracting
  32                                                                              3.96
          Office (DITCO) Manual
  36      Contract Payments MOCAS – Automatic Paid Invoice                        1.31
  39      Commercial Payments – Government Purchase Card                          6.52
  40      Garnishments                                                          12.99
  41      Civilian Pay – Non-DoD – Manual LES                                     0.14
  42      Contract Payments – DITCO Electronic Commerce                           0.01
  49      Commercial Payments – Fully Electronic Commerce                       12.40
  51      Civilian Pay – Non-DoD – LES                                          41.39
  61      Direct Systems Reimbursement                                         168.00
          Total                                                              $1,603.82


                                                  29
Appendix C. Memorandum for USD(C)/CFO

                                       INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                        400 ARMY NAVY DRIVE
                                   ARLINGTON, VIRGI_NIA 22202-4704

                                                                                      August 31, 201 1

    MEMORANDUM FOR UNDERSECRETARY OF DEFENSE (COMPTROLLER)/
                     CHIEF FfNANCIAL OFFICER

    SUBJECT: Audit of Defense Finance and Accounting Service Billing Rates for Services
             Provided to DoD Customers (Project No, D20 11-DOOOFl-OOOI.OOO)

            During the subject audit, we identified a matter that wanants your attention. In FY 20 II,
   Defense Finance and Accounting Service (DFAS) reduced its customers' bills by $35.5 million
   to retum a portion of its Accumulated Opemting Result (AOR) as directed by a Resomce
   Management Decision (RMD). However, DFAS persotme1d id not retum the $35.5 million in
   accordance with the DoD Financial Management Regulation (FMR) or guidance they received
   from the Office of the Under Secretary of Defense (Comptroller) (OUSD[C]), Revolving Funds
   Directorate. Instead of reducing customer bills by n<ij usting the billing rates, DFAS issued
   billing credits to its customers from January 201 1 tlu'Oltgll August 20 II . By providing billing
   credits, DFAS may have augmented the appropriations of its DoD customers, a potential
   violntion of the Antidefi ciency Act.

           Our overall nudit objective was to determine whether the methodology DFAS used to
   estimate the workcounts and costs for FY 2011 stabilized billing rates complied with applicable
   laws and regulations. Specifically, we wonted to determine whether DFAS estimated
   workcounts and d irect costs for two outputs, Retired Military Pay and Accounting Services, were
   in accordance with DoD regulations and established policies and procedmes. Our objective was
   also to determine whether DFAS has taken action to reduce rates tllrough greater efficiencies.
   This m emo only identifies a potential augmentation of appropriations due to the DFAS
   noncompliance with the DoD FMR so management may take corrective action.

   Resource Management Decision Directive
           Resource Management Decision 700 issued by OUSD(C) on December 23, 2009,
   directed DFAS to adjust FY 201I customer rates in order to return $35.5million of excess AOR
   expected to accumulate tlu·ough FY 20 I0. OUSD(C) personnel slated that they intended for the
   rate changes to reduce the amount of revenue that DFAS would collect from its customers during
   FY 20 11 , thereby decreasing the DFAS AOR. In RMD 700, OUSD(C) personnel identified the
   following factors as justificatio n for the DFAS rnte reduction .

      •   DFAS had positive AOR and a cash gain of approximately $72.1 million in FY 2009.

      •   Actual 2009 workcount volume exceeded budgeted amounts and was expected to
          continue in FY 20 I 0.

      •   The FY 2010 cash balance would continue to grow, so a rate decrease was required in
          FY 2011 to stabilize the rnte structure and cash growth .




                                                   30
                                                                                                                                           2

RMD 700 identified projected amounts to be returned to specific customers.

OUSD(C) Disapproval of the DFAS AOR Return Methodology
       On December 30,2010, the Director of the OUSD(C), Revolving Funds Directorate,
informed DFAS that returning the AOR amount through the use of billing credits was not
appropriate. OUSD(C) persotmel provided DFAS the following reasons for disapproving the
proposed billing credit methodology.
   o    The RMD directed a total AOR amount to return to customers through the rates.
        However, OF AS was not responsible for ensuring bills to individual customers decrease
        exactly us shown in the RMD.

   o   Rebating customers for the AOR surplus, rather than adjusting rates to prevent the growth
       of AOR, was not in compliance with the DoD FMR.

   •   The use of a rebate to customers implies customer rates were higher than actual costs on a
       recurring basis, which defeats the stabilized rate concept. Further, it can be viewed as
       extending the life of an appropriation - higher rates paid by customers in one year are
       returned in a rebate the following year for future use.
       Contrary to this guidance, from January through August 2011, DfAS returned the
$35.5 million AOR surplus to the DoD customers listed in the RMD 700 by crediting the exact
amounts from RMD 700 against each customer's Military Interdepartmental Purchase Request
for DFAS services. The table identifies the dollar amount credited to each DoD customer.


                                        Tnl>lc. Bllling Credit Amount Issued by I>FAS
                                         ~--·-----~---·-                                  -·-.
                                                Customc1'                                    .-1. J~mqu_n~ C_rcditcd I
                                                                                    ...... _ _ ..
                                                     ~   ______   ~---- ~- --   ~--~ ---·-· ·- J.       ~~5,60Q,OOOj
        Air Force                            _ --~ ··--------- ___ -~                              .. _I .               s!Q_Q_o,oop I
       _llnvy_ ____________ ___ ··--~-- _ · · · - · - - - -                                            I                 7_.2oo.QQQ_I
       -~-(l~i!l~<;:orps                                                                             .I.                 l,?Q~.QOO     J
       .. P.~.fense Health _Progmm- Ar!l~Y                                                            I                    547,2]9_ j
       __Qefen:~e J-len)_th Program- Nnv>:                              ----~~----· ·-~               I.                   398,675 I
       _pefensei~og~stics Agency ....                                                                _I --~- _l!Q&OO I
        Office of the Secretary of Defense
        (Note: Air Force recel1:ed 1/.l_~~jJj!!Jilg_g::djl)_ __ _
                                                                                                      j        247,000                 I
       ..J2~fell~e}1!f21:~~~1J!iOI1~_~.}'~~~-~~_lii_\g~_ll£L_ _ __ ---~-                         -~--' ··----~--~-~----·- ... __244,0~~~
        _QefcJ!Se Conlti'l~t Mun~ge~!!~_llt J\8~..!!9'_ _ _ ...                                     .J . .. -··· . . 202,0QQJ
       _~J.>artmcnt of Def~!!'e-~du_<;~tiot~ A<:!i~ty --~ ----                                      J ..............  19l ,990 I
                                                                                                       1.      ___     __ t_~4.ooo 1
                                               Customer
                                                     ·-
         -··--·-·-·· · ···· -~·-~· · ···-· ··-~ ~-·----- -~--~-
                                                                                     ._ ________ J __!\,t~to~!~!!...G!:'!..<!_itc!!...l
        l)_cfc~l~C ~ntract At~dit !'-ge_l19'                                       ____________j ___ _ _ _                J39,oQg 1




                                                                         31
                                                                                               3


         Dusi•~ess Trnnsformation Agency                            I            114,000 I
         National G_e~patinl Agency                                 I            I 00,000 I
         D~fense Tluent Reduction Age!ICY                         .J               75,0~_0 I
         De~et1se Henlth Program - Financial Mnnngcmcnt Offi~e I                   73,2~_2 J
        ·Department of_Qefense, Office of Inspector General         J              53,00~ I
         De_pa!tl_!Jent _of J?.cfcnse, Human_Resources Activity     I              3?.,00.QI
         ~atiQ_nal Security Agency                                  I              33,0_90 I
         Defense !!Jtelligenc~ Agency                             _I __ _          19,000 I
         Nati~mal D~~11~_p University                           _ J __             18,000 I
         pef~~~e-~~<:~•.tjty Service                              j_               18,000 I
         D~f~n~e Acquisition University                             I              14,0qQ I
         Defense Henl~1 Program -:-_Air Force                    _ I               11,794 I
         pe(c:!~ Legal Services Agency_                            J.               8,0_90 J
         Defense Technology Security Administrntiot~ _ ____ _j                      6,900 I
         Q_efet!~~ Plisoncr ofWar/Mi~~!_g Personnel 0ffi£_e_ ___j __           _~Q.. I
         Ofllce of ~c~ton!ic Adjustment                             I          _ _§ OOQ ]
                                 TOTAL                      ~-'-- S35,5~7,!1_~~.J
        DFAS Resource Mnnagement persotmcl stated that when reviewing RMD 700, they
believed the amounts listed were exact amounts that OUSD(C) wanted each customer to receive.
DFAS Resource Management persotmel stntcd that if they adjusted the customer billing rates,
they could not ensure that the customers received the exact AOR return identified in the
RMD 700. DFAS Resource Management personnel concluded that the only way to ensure an
exact refund of AOR listed on the RMD wus to provide a credit to each customer's bill.

Billing Credits and Augmenting Appropriation
        Dy providing billing credits to customers rather than adjusting rates to prevent AOR
growth, DFAS failed to comply with the DoD FMR and guidance from the OUSD(C), Revolving
Funds Directorate. DoD FMR, volume 28, chapter 9, "Defense Working Capital Funds Activity
Group Analysis," June 20 I0, states that the stabilized rates are to be adjusted for the impact of
prior year gains or losses as renected by the AOR. The practice of providing credits in the
current or future fiscal years to organizations whose annual funds were overcharged in 11 prior
fiscal yenr, results in a potential nugmcntnlion of those appropriations and violation of law. This
generally results in obligations and expenditures by that agency in excess oflhe amount
originally appropriated by Congress. Augmentation is considered a violation of law because
Congress appropriates a specific amount of funding to agencies for specific purposes dul'ing a
specific period of time. Ifan agency obtains additional funding from another source, unless
provided for by another law, it has more budget authority than Congress said it could have for
those purposes dming that time. The basis for the prohibition against augmentnt ion is that the
action would normally result inn violation of one or more of the following legal provisions:




                                               32
    DFAS
             by
               DFAS

DFAS.




        By not adjusting billing rates for the
                                   pay DFAS.
                                    11s
                                   AOR
                                     September
           DFAS

           are
          and are providing you

corrective actions taken ns a

2011.




                                    Patricia
Appendix E. DFAS Rate Fluctuations
Output 4 Rates Increased Due to Contract Costs
From FY 2007 through FY 2010, the estimated workcounts * for Output 4 (Retired
Military Pay Accounts) remained relatively stable, increasing by no more than
1.3 percent annually. During that time, the stabilized billing rates increased
from $1.55 to $2.38. DFAS personnel attributed the increase in the billing rates to
increased contract costs for performing the Retired Pay function. In February 2010,
DFAS management recapitalized the Retired Pay function. DFAS personnel stated that
performing the function in-house resulted in rate reductions in FY 2012. Table E-1
identifies the Output 4 estimated workcounts, budgeted contract costs, and composite
rates for FYs 2007 through 2012.

              Table E-1. Output 4 Information for FYs 2007 Through 2012

                                                                  Budgeted
    Fiscal                 Estimated                            Contract Cost              Stabilized
    Year              Workcounts (in millions)                   (in millions)            Billing Rate
    2007                           31.8                               $25.8                   $1.55
    2008                           32.0                                25.5                    1.80
    2009                           32.4                                32.8                    2.15
    2010                           32.8                                37.4                    2.38
    2011                           33.2                                    0                   2.26
    2012                           33.7                                    0                   1.90

Output 11 Rates Decreased Due to a Return of
Accumulated Operating Results
The stabilized rates for Output 11 (Accounting Services) remained relatively constant
from FY 2007 through FY 2011. However, Output 11 rates drastically dropped in
FY 2012. The Director, DFAS Corporate Budget Office stated that the FY 2012 rate
reduction for Output 11 was due to a decision to use Output 11 exclusively to return the
AOR surplus to its customers (see Finding A). According to a DFAS Resource
Management representative, the rates for Output 11 were expected to increase in FY 2013
if no additional AOR return is directed by USD(C)/CFO. Table E-2 identifies the rates
DFAS charged its five major customers from FYs 2007 through 2011 and plans to charge
in FY 2012.



*
  Workcount estimations for each DFAS customer are those output-based totals negotiated between the
individual customers and their respective DFAS Client Executive Liaison. The initial estimates are
prepared about 2 fiscal years before the year of execution, with updates to the estimates on an as-needed
basis.

                                                    35
                Table E-2. Output 11 Rates for FYs 2007 Through 2012

   DFAS
  Customer        FY 2007    FY 2008          FY 2009      FY 2010   FY 2011     FY 2012
    Army           $68.25     $70.94           $74.60       $68.86   $71.21         $45.90
    Navy            72.24       75.68           79.12        75.13    73.73           46.79
  Air Force         69.11      74.74            74.56        76.22    72.55           44.04
   Marine
   Corps            81.13      72.08            79.17       75.90     74.01           49.21
     DLA            75.77      75.44            76.88       76.22     70.43           49.43

 Table E-3 summarizes the differences between the estimates and actual workcounts for
 FY 2008 through FY 2011.

       Table E-3. FY 2008 – FY 2011 Output 11 Estimated vs. Actual Workcounts
                                    (in millions)

Fiscal    Estimate/Actual/               Air               Marine
                             Army                   Navy             DLA      Other      Total
Year         Percentage                 Force              Corps
              Estimate       2.45       1.23        1.12     0.28    0.50      0.83      6.41
               Actual        2.42       1.46        1.08     0.25    0.45      0.77      6.43
2008
            Percent Over
                              1%        (19%)       4%       12%     10%       7%             0
          (Under) Estimate
              Estimate       2.42       1.12        1.12     0.27    0.50      0.73      6.15
               Actual        2.35       1.52        1.12     0.20    0.44      0.75      6.37
2009
            Percent Over
                              3%        (36%)        0       24%     12%      (1%)       (4%)
          (Under) Estimate
              Estimate       2.31       1.37        1.10     0.26    0.48      0.75      6.25
               Actual        2.63       1.56        1.13     0.22    0.42      0.78      6.74
2010
            Percent Over
                             (14%)      (14%)       (3%)     16%     11%      (4%)       (8%)
          (Under) Estimate
              Estimate       2.36       1.55        1.03     0.24    0.57      0.76      6.50
               Actual        2.38       1.55        1.04     0.26    0.44      0.77      6.44
2011
            Percent Over
                             (1%)         0         (1%)    (8%)     22%      (1%)        1%
          (Under) Estimate




                                               36
Appendix F. Statistical Sample
Population
The population consisted of two Excel files, the DPBS President’s Budget 2011
Workload file, which consisted of 5,310 records, with a total of 496.8 million
workcounts, and the DPBS President’s Budget 2011 Dollar file, which consisted of
32,552 records, with a total value of $1.6 billion. We used the column labeled “FY2011”
to tally our counts for number of records and the values for workcounts and dollars.

For the DPBS President’s Budget 2011 Workload file, we selected the workload
estimates for Outputs 4 and 11 that pertained to the five major DFAS customers. The
five major DFAS customers in FY 2011 were the Army, Navy, Air Force, Marine Corps,
and DLA. This reduced our population to 928 records, with a total of 38.9 million
workcounts. Once we removed the records that contained zero workcounts, the number
of records in our population was reduced to 521.

For the DPBS President’s Budget 2011 Dollar file, we selected the direct cost records for
Outputs 4 and 11. This reduced our population to 511 records, with a total value of
$339.2 million. Once we removed the records that contained zero dollars, the number of
records in our population was reduced to 338.

Measures
The primary objective of the sampling plan was to randomly select estimated workcounts
and direct costs for two outputs, Retired Military Pay Accounts (Output 4) and
Accounting Services (Output 11), to determine whether workcounts and direct costs were
calculated in accordance with applicable laws and regulations.

Parameters
We used a 90-percent confidence interval with a coefficient of variation three times the
mean to determine the sample size.

Sample Plan
QMD used a stratified sampling design for this project, stratifying each of the
subpopulations into three strata, based on workcounts and dollar values, respectively.
Using the random function in Excel, we selected a random sample of 67 workcount
records and 77 dollar value records.

Analysis and Interpretation
The QMD analysts did not project the results of our testing because we determined that
DFAS did not maintain sufficient documentation for us to determine whether or not the
workcounts and direct costs were calculated in accordance with applicable laws and
regulations.



                                            37
Our sample of $305.2 million in estimated direct costs included two items for
depreciation expense totaling $2.3 million. DFAS personnel stated that the estimated
depreciation expense for the two sample items was extracted from the Defense Property
and Accountability System. However, the estimated $2.3 million in Defense Retiree and
Annuitant Pay System depreciation expense from our sample incorrectly double-
counted $278,703 in estimated depreciation expense. Although we informed DFAS of
what we found, DFAS did not adjust the Output 11 billing rates because of the
immateriality of the amount.




                                         38
Appendix G. DFAS Efficiency Actions
Secretary of Defense Efficiency Initiatives
In a speech on August 9, 2010, former Secretary of Defense Robert Gates provided his
rationale for mandating efficiencies across DoD as well as a broad overview of what he
intended to accomplish with these actions. Rather than reduce the Department’s top-line
budget, the efficiencies were intended to significantly reduce excess overhead costs
within DoD in order to apply the savings to force structure and modernization.

In his followup memorandum to the DoD community, dated August 16, 2010, Secretary
Gates provided further details regarding initiatives to reduce excess and duplication
throughout DoD. Specifically, the former Secretary identified 20 actions designed to
reduce duplication, overhead, and excess within the Department and instill a culture of
savings and restraint across DoD.

DFAS-Initiated Efficiency Actions
DFAS initiated efficiency actions in response to the former Secretary’s efficiency
initiative. Specifically, DFAS initiated the following actions.

   •   Ensure all contract-writing systems electronically interface with both entitlement
       and accounting systems and fully implement Wide Area Workflow and the
       Government Purchase Card program. This recommendation has an estimated
       personnel savings of 203 civilian billets and estimated FY 2012 savings of
       $10 million.

   •   Eliminate paper leave and earnings statements and use electronic leave and
       earnings statements for the remaining 271,000 DoD employees that receive them
       on paper. DoD employees would still be able to get their statements online.
       Savings realized are from postage and printing. This recommendation has no
       estimated personnel and an estimated FY 2012 savings of $3.1 million.

   •   Eliminate one Civilian Senior Executive billet, 227 contractor positions, and five
       civilian billets in enterprise and administrative support staff to reduce personnel
       and budget costs without impacting the underlying mission. This
       recommendation has an estimated FY 2012 savings of $27.8 million.

In addition, DFAS identified numerous other initiatives aimed at improving operational
efficiencies, achieving some level of cost avoidance, or assisting in complying with
applicable laws and regulations. Many of these initiatives were in existence before the
efficiency efforts mandated by Secretary Gates were made known. Many DFAS
initiatives involved significant coordination with specific DFAS customers. Much of the
cost-savings will primarily benefit the customers. For example, when Enterprise
Resource Planning systems have been fully implemented, DFAS’s workload should
decrease and result in a reduction in operational costs billed to the customers. DFAS is
also expected to achieve cost-savings through the following initiatives and projects.

                                            39
•   Lean6 Projects. Lean6 projects provide a fact-based approach for improving
    business processes in an attempt to deliver the best value to the customer. For
    FY 2010, DFAS claimed to have completed 119 Lean6 projects resulting in
    $21.3 million in cost-savings.

•   MYMETRICS. The MYMETRICS initiative is an application that will track
    DFAS metrics in a single integrated source, which will allow DFAS executives to
    monitor the performance of the organization. DFAS did not reference any
    potential cost-savings or process improvements in the MYMETRICS factsheet.

•   Base Realignment and Closure. Base Realignment and Closure is an ongoing
    DoD initiative. The Base Realignment and Closure 2005 legislation closed
    20 sites, realigned the headquarters, and established the primary footprint for
    DFAS at five locations. DFAS estimated that the Base Realignment and Closure
    consolidation will yield a net savings of $450 million by the end of FY 2011.

•   Accounting High-Performance Organization. The Accounting High-
    Performance Organization is an internal initiative to merge accounting and
    commercial pay into a standard structure across DFAS sites. DFAS anticipated
    savings for this initiative of $122.7 million and 1,827 full-time-equivalent
    positions by the end of FY 2011.

•   Business Activity Monitoring. Business Activity Monitoring provides DFAS
    with greater assurance that potential weaknesses are detected and properly
    mitigated in a timely manner. The DFAS factsheet for this initiative made no
    reference to any potential cost savings or specific process improvements.

•   Enterprise Local Area Network Reengineering. DFAS hopes that the
    reengineering of the Enterprise Local Area Network will provide improved
    services, greater reliability, and reduced total cost of ownership for the agency.

•   Centralized Electronic Document Management System. The Centralized
    Electronic Document Management System is an internal DFAS initiative that
    provides DFAS with the ability to remotely scan all types of documents, transmit
    them to a central repository, and retrieve the imaged documents. DFAS projects
    that the Centralized Electronic Document Management System will save
    approximately $37 million beginning in FY 2012.




                                         40
Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD, Comments


                                 UNDER SECRETARY OF DEFENSE
                                        I I 00 DEFENSE PENTAGON
                                       WASHINGTON DC 20:301 1 100


                                                                                           JUL    6   J'   'l


      MEMORANDLM FOR DEPARTMENT OF OF.FF.NSE INSPECTOR GENERAL (LJoD IG).
                       FINANC IAL MANAGEMENT AND RF.PORTING

      SUBJECT: DoD In~peL: tor Gt.:neral"s draft repon (PI'OJI!Ct U(l. 02011-DOOOFI-000 1.000)
               ·"Improvement::. N..:edeu in How the Defense Finance and Accounting Service
               Adjusts uud Supports Bill ing Rates.'"

           fhe Department of Defense (DoD) is providing the attached response to FiJJding A.

      ··Improper Method Used to Return Accumulated Operating Results to Customers in

      FisCJJ Year 20 II:· to the DoD IG draft repori dated June 5, 2012. My point of contact is




                                                      Ruben P. llale

      Attachment:
      1\s Stated




                                                                  41
                                         DoD Comments
                                       DoD lG Uraft Keport
                               Project No. 02011-DOOOF!-0001.000

Recommendation:
A: We recommend that the Under Secretary of Defense (Comptroller)/Chief Financial Orticer,
DoD, document the analysis supp01ting the decision to allow billing credits as an alternate
methodology to adj usting rates and the detern1ination that using hi lli ng credits did not extend the
life of customer fund5. [f he can provid~ a busim:ss cast: that supports this position, ht: should
change DoD policy and allow this as an alternate approach for returning positive Accumulated
Operating Results. Otht:rwise, he should enforce compliance with approved policies for
returning Accumulated Operating Results through rate adjustments.

DoD Comment:

We partially concur with the recommendation. We decided not to issue policy to allow working
capital fund (WCF) activities to issue billing credits to customers as a means of reducing
Accumulated Operating Results (AOR). Adjustment of rates charged to WCF customers
remains the authorized method for reducing AOK The Department, therefore, will not
undertake a business case analysis to compare the effects of reducing customer rates with the
effects of issuing of billing credits. The lJoO Financial Management Regulation (OoO FMR),
Volume 2B, Chapter 9, will be updated to clarify and strengthen the guidance on management-
directed AOR reductions.

We non-concur that FY 2011 appropriation accounts of Defense Finance & Accounting Service
(DFAS) customers might have been augmented by the DF AS's issuance of billing credits in lieu
of downwardly adjusting FY 2011 customer rates. A signed Resource Management Decision
(RMD) adjusts appropriation ac:w unts (~.g. Operation and Ylaintenam:e) to reile<..:t decisions
made in tbe RMD. Specifically, in RMD 700, December 23, 2009, issue no. RF D002-DFAS,
the Secretary of Defense instructed the DFAS to adj ust rates to relllrn approximately
$35.5 million of AOR to its customers and decremented each customer's fundi ng request by an
amount commensurate with that reduction. Customer requirements were not reduced. but their
budget requests were reduced in anticipation of a lower bill from the DFAS. The effective
amount of funds available to customers of the DFAS was not increased by actions taken by the
DFAS.

In the year of execution, without action by the DFAS. (e.g. a downward rate adjustment called
for by established policy or the issuance or billing credits). customer O&M appropriations
available fo r non-OF AS requirements would, in effect, have been reduced by approximately
$35.5 m illion below amounts budgeted. The impact on the FY 20 11 customer appropriation
accounts by the DFAS issuance of$35.5 million of bill ing credits is equivalent to the effect on
such appropriat ions had the DFAS decreased FY 2011 customer rates. Tbe DFAS action5 did
nut augment customer appropriations for FY 201 I by enabling customers 10 operate above levels
that would have existed had the DF AS decreased its rates for FY 2011.

This response has been coordinated with OSD Fiseallawyers.




                                                               42
Defense Finance and Accounting Service Comments 




                      D E FEN SE FINANCE AND ACCO UNTING SERVICE
                                         889~ E AST 5 8TH ST REET
                                      INOI ANAP O L IS . IN O lANA 46 2 4 9




                                                                               JUN 2 8 2012
       DFAS-ZR!IN


       MEMORANDUM FOR DEPARTMENT OF DEFENSE OFFICE OF INSPECTOR
                        GEN ERAL (DoD IG)

       SUBJECT: Improvements Needed in How the Defense Fi.nancc:: and Accounting
                Service Adjusts and Suppons Billing Ratt:s (Project No.
                020 11-DOOOFI-0001.000)




       _....The Defense Finance and Accowiting Service (DFAS) is providing the attached
       comments and actions taken in response to the DoD IG drnft report, dated JWie 5, 2012.

              My POC for questions or concerns is· · · · · · · · · · · · ·




                                                    4f;~~:!
                                                        ChiefFinancial Officer

        Attachment:
        As stated




                                               www.dfa':i. mil
                                        Your Finaodol Portrer@ Wotl<




                                                                          43
                                          DFAS Comments
                                      DoDIG Dran Audit R<!port
                                Proj ect no. 0 20 11-DOOOFl-000 1.000


GrnemJ

l11e chart on page 3, highlighting DFAS costs and revenue, reOects fi gur.:s over a relatively short
period. DFAS sugg.:sts includi ng 2006 expenses o f $ 1.813 8 and revenue o f $ 1.803 8 as data
points to highlight the significaut cxpc1lse flu ctuations and cyclica l nature of Wo rking Capital
Fund cost r.:covery.

l l1e intem al control weaknesses summarized in the report sectio n titled . .. Review o f lnh: ma l
Contro ls over the Development of Billing Rates'' arc e.\'Piicitly addressed in the subsequent
DFAS responses.

FINDING B. Return o f AOR Distorted FY2012 Billing Rates:

DFAS RM Response

    •   Recommenda ti on B I -Concur. DFAS developed and implememed a Unit Cost anal ysis
        capability. which allows for the identification of o utput execution revenue and cost
        varian ces fro m the budgeted plan. TI1is tool speci!ically identi.!ie the impact each output
        has on increases and decreases to the et Openu in g Results (NO R) o fD FAS.

    •   Recommendation 02 Concur w ith comment. 111c DFAS timekeeping system docs not
        provide the capability to specifically link individual empl oyee records to customer bills.
        However, U1e syst.:m does provide de tailed organizational i nfonnation a llowing DFAS to
        reconcile timekeeping data between the re\'cnue re llected on its financ ial stateme nts and
        the custom er bills. ensuring c ustomers are properly and accurately bill~d .

    •   Recommendation 8 3 - Concur. ' l11e DFAS Clie nt Executive staff provides customers
        with a monthl y breakout of billing which inc ludes workloadfworkcount execution year-
        Io-date. by output. and an adjusted estimate o f anticipated workloadfworkcounts for the
        rcmaind.:r of the year.

    •   Recommendation 84 - Concur. DFAS has initiated an cflort to develop a product that
        provides ti •rthcr transparency of Direct Billable I lours. identifying U1e spcci.fic type of
        accounting serv ices being pcrfo nncd. This produc t will be coupled w ith the monthly
        workload updates to IJ1c customers. discussed above. providing a fonm1 for DFAS and its
        customers to discuss costs and f11ture estimates.

    •   D FAS considers thi s finding closed.




                                                    1




                                                                 44
FINDING C. DFAS Needs to Maintain Supporting Documentation for Workcounts and
Costs

DFAS R:vt Response

   •   Recommendation C - Concur. l11e DFAS Director of Resource l\·lanag.:ment ha ·
       developed a pol icy requiring speci(jc supponing documentation for all decisions
       r~garding workcow1t and cost estimat~ and the corr~spond ing d~vclopment of rates be
       recorded and maintained for two years after the y~ar of ~xccution .

   •   DFAS considers thi s (jnding closed.




                                              2




                                                          45
